                                                                 Issue Date
                                                                          September 30, 2007
                                                                 Audit Report Number
                                                                          2007-CH-1017




TO:        Jorgelle Lawson, Director of Community Planning and Development, 5ED


FROM:      Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The City of Cincinnati, Ohio Lacked Adequate Controls over Its HOME
           Investment Partnerships Program

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the City of Cincinnati’s (City) HOME Investment Partnerships
             Program (Program). The audit was part of the activities in our fiscal year 2007
             annual audit plan. We selected the City based upon a request from the U.S.
             Department of Housing and Urban Development’s (HUD) Columbus Office of
             Community Planning and Development and our analysis of risk factors relating to
             Program grantees in Region V’s jurisdiction. Our audit objectives were to
             determine whether the City effectively administered its Program and followed
             HUD’s requirements. This is the first of two audit reports on the City’s Program.

 What We Found

             The City did not effectively administer its Program and violated HUD’s
             requirements. It did not comply with HUD’s regulations in providing housing
             rehabilitation assistance for owner-occupied single-family rehabilitation projects
             (projects) and/or downpayments, closing costs, homebuyer counseling, and home
             inspections for American Dream Downpayment Initiative (Initiative) activities. It
             inappropriately provided more than $225,000 in Program funds to assist three
             projects that either did not qualify as affordable housing or in which the
             household was not income eligible, inappropriately provided $41,000 in Initiative
           funds to assist five households in which they were not income eligible, and was
           unable to support its use of nearly $1.4 million in Program and Initiative funds for
           projects and activities.

What We Recommend

           We recommend that the Director of HUD’s Columbus Office of Community
           Planning and Development require the City to reimburse its Program and
           Initiative from nonfederal funds for the improper use of funds, provide support or
           reimburse its Program and Initiative from nonfederal funds for the unsupported
           payments, and implement adequate procedures and controls to address the
           findings cited in this audit report. These procedures and controls should help
           ensure that more than $134,000 in Program and Initiative funds is appropriately
           used over the next year.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.


Auditee’s Response

           We provided our discussion draft audit report and supporting schedules to the
           director of the City’s Department, the City’s mayor, and HUD’s staff during the
           audit. We held an exit conference with the City’s director on September 17, 2007.

           We asked the City’s director to provide comments on our discussion draft audit
           report by September 21, 2007. The director provided written comments, dated
           September 20, 2007. The director generally did not agree with the findings. The
           complete text of the written comments, except for 175 pages that were not necessary
           to understand the director’s comments, along with our evaluation of that response,
           can be found in appendix B of this report. We provided the Director of HUD’s
           Columbus Office of Community Planning and Development with a complete copy
           of the City’s written comments plus the 175 pages of documentation.




                                            2
                             TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit
      Finding 1: Controls over the City’s Program Projects Were Inadequate        6

      Finding 2: Controls over the City’s Initiative Activities Were Inadequate   9

Scope and Methodology                                                             12

Internal Controls                                                                 14

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use              16
   B. Auditee Comments and OIG’s Evaluation                                       17
   C. HUD’s Regulations                                                           34




                                              3
                      BACKGROUND AND OBJECTIVES

The Program. Authorized under Title II of the Cranston-Gonzales National Affordable Housing
Act, as amended, the HOME Investment Partnerships Program (Program) is funded for the purpose
of increasing the supply of affordable standard rental housing; improving substandard housing for
existing homeowners; assisting new homebuyers through acquisition, construction, and
rehabilitation of housing; and providing tenant-based rental assistance. The American Dream
Downpayment Assistance Act established a separate funding formula for the American Dream
Downpayment Initiative (Initiative) under the Program to provide downpayment assistance, closing
costs, and rehabilitation assistance to eligible first-time homebuyers.

The City. Organized under the laws of the state of Ohio, the City of Cincinnati (City) is
governed by a mayor and a nine-member council, elected to two-year terms. The City’s
Department of Community Development and Planning (Department) administers the City’s
Program. The Department’s overall mission is to serve as an innovative, proactive partner in
supporting comprehensive economic and workforce development, quality housing development,
historic conservation, land use management, arts and cultural amenities, and social services for
all of the City’s citizens. The City’s Program records are located at 805 Central Avenue,
Cincinnati, Ohio.

The following table shows the amount of Program and Initiative funds the U.S. Department of
Housing and Urban Development (HUD) awarded the City for Program years 2003 through
2006.

                            Program         Program           Initiative
                              year            funds             funds
                              2003           $4,434,528          $228,566
                              2004            4,428,285           269,714
                              2005            4,219,448           153,797
                              2006            3,977,487             76,743
                             Totals         $17,059,748          $728,820

The City awarded Program funds to the Home Ownership Center (Center), a nonprofit
organization subrecipient, to provide housing rehabilitation assistance for owner-occupied
single-family rehabilitation projects (projects) during January 2005 through January 2007. It
provided Initiative funds directly to homebuyers to assist with downpayments and closing costs
for Initiative activities (activities). It also used Initiative funds to provide homebuyer counseling
and pay for home inspections associated with the activities.

Effective June 2007, the City executed an agreement with HUD and the U.S. Department of
Justice to settle all outstanding issues regarding the City’s improper use of Program funds for the
Huntington Meadows apartment project. The settlement agreement requires the City to
reimburse its Program $3.95 million. The final payment under the agreement is due by January
31, 2009.



                                                  4
Our audit objectives were to determine whether the City effectively administered its Program
and followed HUD’s requirements. This is the first of two audit reports on the City’s Program.




                                               5
                             RESULTS OF AUDIT

Finding 1: Controls over the City’s Program Projects Were Inadequate
The City did not comply with HUD’s regulations in providing housing rehabilitation assistance
for projects. It provided assistance for ineligible projects and did not have documentation to
support that projects were eligible because it lacked adequate procedures and controls to ensure
that HUD’s regulations were appropriately followed. As a result, it inappropriately provided
more than $225,000 in Program funds to assist three projects that either did not qualify as
affordable housing or in which the household was not income eligible and was unable to support
its use of more than $1.1 million in Program funds. Based on our sample, we estimate that over
the next year, the City will use more than $100,000 in Program funds for improper projects.


 The City Provided More Than
 $225,000 in Program Funds for
 Improper Projects

              We selected for review the 18 projects that the City completed from January 1,
              2005, through March 23, 2007. The City provided $155,090 in Program funds to
              assist two projects that did not qualify as affordable housing. The following table
              shows the project number, the appraisal date, the prerehabilitation appraisal for
              the after-rehabilitation value of the house, the affordability limit, the percentage
              by which the after-rehabilitation appraised value of the house exceeded the
              affordability limit, and the housing assistance amount.

                Project                      Appraised    Affordability   Percentage   Assistance
                number     Appraisal date      value          limit       over limit    amount
                 2031     January 10, 2005     $222,000       $179,901       23.4         $75,324
                 1928       July 12, 2005       189,000         179,901       5.1           79,766
                                               Total                                     $155,090

              The City also provided $69,995 in Program funds to assist one project in which
              the household was not income eligible. The household income for project number
              1783 exceeded the required income guideline by $1,934 (5.4 percent). The City
              awarded and began providing assistance to the household in December 2003 and
              September 2004, respectively.




                                                6
The City Lacked
Documentation to Support Its
Use of More Than $1.1 million
in Program Funds


            The City lacked documentation for 15 of the 18 projects selected for review to
            support that it used more than $1.1 million in Program funds for appropriate
            projects. The following table shows the 15 projects for which the City lacked
            sufficient income documentation to demonstrate that households were income
            eligible and/or a prerehabilitation appraisal for the after-rehabilitation value of the
            house to show that the projects qualified as affordable housing.

                         Project    Sufficient income   Pre-rehabilitation   Assistance
                         number      documentation          appraisal         amount
                          1774              X                                   $56,831
                          1775              X                   X                79,773
                          1776              X                                    55,256
                          1782              X                                    88,325
                          1785              X                                    67,224
                          1786              X                                   131,127
                          1886              X                                    47,063
                          1905              X                                    32,181
                          1907              X                                    65,437
                          1928              X                                    75,324
                          2031              X                                    79,766
                          2032              X                                    88,756
                          2033              X                                    77,739
                          2034              X                                    89,626
                          2140              X                                    72,346
                         Totals             15                  1            $1,106,774


The City Lacked Adequate
Procedures and Controls

            The weaknesses regarding the City’s providing assistance for improper projects
            and lacking documentation to support that projects were appropriate occurred
            because the City lacked adequate procedures and controls to ensure that it
            appropriately followed HUD’s regulations. The City did not ensure that it fully
            implemented HUD’s regulations.

            The City did not adequately monitor the Center to ensure that assistance was only
            provided for appropriate projects and that the necessary supporting documentation
            was maintained. The senior community development analyst for the City’s
            Department stated that the City performed file reviews during its monitoring.
            However, it did not document which files it reviewed. Further, it did not verify
            eligibility determinations and income calculations. It only determined whether



                                               7
             the file appeared to contain all of the appropriate documentation. In addition, the
             housing division manager of the City’s Department stated that the Department’s
             and the Center’s staff needed additional training regarding income calculations.

Conclusion

             The City did not properly use its Program funds when it failed to comply with
             HUD’s requirements. As previously mentioned, the City provided $225,085
             ($155,090 plus $69,995) in Program funds to assist three projects that either did not
             qualify as affordable housing or in which the household was not income eligible and
             was unable to support its use of more than $1.1 million in Program funds for the 15
             projects without sufficient documentation supporting eligibility.

             If the City implements adequate procedures and controls over Program funds to
             ensure compliance with HUD’s regulations, we estimate that it will not use
             $100,147 in Program funds over the next year for improper projects. Our
             methodology for this estimate is explained in the Scope and Methodology section of
             this audit report.

Recommendations

             We recommend that the director of HUD’s Columbus Office of Community
             Planning and Development require the City to

             1A.    Reimburse its Program $225,085 ($155,090 to assist the two projects that
                    did not qualify as affordable housing plus $69,995 used to assist the one
                    project in which the household was not income eligible) from nonfederal
                    funds for the improper use of Program funds cited in this finding.

             1B.    Provide supporting documentation or reimburse its Program from
                    nonfederal funds, as appropriate, for the $1,106,774 in Program funds
                    used for the 15 projects cited in this finding for which the City lacked
                    sufficient income documentation to demonstrate that households were
                    income eligible and/or a pre-rehabilitation appraisal for the after-
                    rehabilitation value of the house to show that the projects qualified as
                    affordable housing.

             1C.    Implement adequate procedures and controls to ensure that housing
                    rehabilitation assistance is only provided to appropriate projects to prevent
                    $100,147 in Program funds from being used over the next 12 months
                    contrary to HUD’s regulations.




                                               8
Finding 2: Controls over the City’s Initiative Activities Were Inadequate
The City did not comply with HUD’s regulations in providing downpayments, closing costs,
homebuyer counseling, and home inspections for Initiative activities. It provided assistance for
ineligible activities and did not have documentation to support that activities were eligible
because it lacked adequate procedures and controls to ensure that HUD’s regulations were
appropriately followed. As a result, it inappropriately provided $41,000 in Initiative funds to
assist five activities in which the households were not income eligible and was unable to support
its use of more than $266,000 in Initiative funds. Based on our statistical sample, we estimate
that over the next year, the City will use more than $34,000 in Initiative funds for activities in
which the households are not income eligible.



 The City Provided $41,000 in
 Initiative Funds for Improper
 Activities

               From the 85 activities that the City started and completed from January 1, 2005,
               through March 23, 2007, we statistically selected 38 activities for review. The
               City provided $41,000 in Initiative funds to assist five households that were not
               income eligible. The Initiative funds were used to provide downpayments,
               closing costs, homebuyer counseling, and home inspections. The following table
               shows the activity number, the date the assistance was awarded, the amount of the
               household’s income that exceeded HUD’s income guidelines, the percentage that
               the household’s income exceeded HUD’s income guidelines, and the amount of
               assistance provided.

                       Activity                          Amount     Percentage over   Assistance
                       number        Award date       overincome        income         amount
                        1934        July 20, 2005          $3,275         7.9              $9,835
                        2065        April 11. 2006            750         1.8               8,880
                        2068         May 2, 2006            4,688         10.0              7,905
                        2113       August 4, 2006           3,273          6.3              5,820
                        2144      November 20, 2006           932         2.0               8,560
                                                   Total                                 $41,000

               For activity number 2113, the City did not include child support payments
               received in the household’s income. If the City had performed a third party
               verification with Hamilton County, Ohio’s (County) Department of Job and
               Family Services when it determined eligibility for activity number 2113, it would
               have been notified that the household was due $11,676 in child support in arrears
               as of June 2006 and was supposed to be receiving $368 in child support per
               month. Therefore, the City should have checked again with the County’s
               Department of Job and Family Services for child support payments before
               providing Initiative funds to the homebuyer on August 14, 2006. The City would
               have been notified that the household was receiving more than $170 in child


                                                  9
             support every two weeks, or $4,422 when annualized causing the household’s
             income to exceed HUD’s income guidelines.

The City Lacked
Documentation to Support Its
Use of More Than $266,000 in
Initiative Funds for Activities

             The City lacked documentation for the 38 activities to support that it followed
             HUD’s regulations when it used $266,382 in Initiative funds to provide
             downpayments, closing costs, homebuyer counseling, and home inspections. The
             City did not conduct inspections to determine whether houses met all applicable
             state and local housing quality standards and code requirements. Further, the City
             could not provide adequate environmental review documentation for the 38
             activities and a lead-based paint disclosure form for 14 activities.

The City Lacked Adequate
Procedures and Controls

             The weaknesses regarding the City’s providing assistance to overincome
             individuals and lacking documentation to support that activities were appropriate
             occurred because the City lacked adequate procedures and controls to ensure that
             it appropriately followed HUD’s regulations. It did not ensure that it fully
             implemented HUD’s regulations.

             The City required applicants to sign authorizations for the release of information.
             However, it did not always use the authorizations to obtain third party
             verifications for income, child support, or Social Security benefits. The housing
             division manager of the City’s Department stated that the Department’s staff
             needed additional training regarding income calculations.

             The housing division manager stated that the Department had been inspecting the
             activities for HUD’s housing quality standards rather than all applicable state and
             local housing quality standards and code requirements since before he became the
             housing division manager in April 2005. As of July 2, 2007, and in response to
             our audit, the City’s Department started conducting inspections to determine
             whether houses met all applicable state and local housing quality standards and
             code requirements.

             The housing division manager stated that it appeared that the City’s Department
             followed its initial environmental review record without determining whether it
             was completed in accordance with HUD’s requirements. The housing division
             manager said that the lack of lead-based paint disclosure forms occurred due to
             oversights.



                                              10
Conclusion

             The City did not properly use its Initiative funds when it failed to comply with
             HUD’s requirements. As previously mentioned, the City provided $41,000 in
             Initiative funds to assist five activities in which the households were not income
             eligible and was unable to support its use of $266,382 in Initiative funds for the
             38 activities without sufficient documentation supporting eligibility.

             If the City implements adequate procedures and controls over Initiative funds to
             ensure compliance with HUD’s regulations, we estimate that it will not use
             $34,308 in Initiative funds over the next year for activities in which homebuyers
             are not income eligible. Our methodology for this estimate is explained in the
             Scope and Methodology section of this audit report.

Recommendations

             We recommend that the Director of HUD’s Columbus Office of Community
             Planning and Development require the City to

             2A.    Reimburse its Initiative $41,000 from nonfederal funds for the five
                    activities cited in this finding in which the households were not income
                    eligible.

             2B.    Provide supporting documentation or reimburse its Initiative from
                    nonfederal funds the $266,382 used for the 38 activities cited in this
                    finding in which the City did not conduct inspections to determine
                    whether the houses met all applicable state and local housing quality
                    standards and code requirements and/or could not provide adequate
                    environmental review documentation and/or a lead-based paint disclosure
                    form.

             2C.    Implement adequate procedures and controls to ensure that Initiative funds
                    are only used for eligible activities to prevent $34,308 in Initiative funds
                    from being used over the next 12 months contrary to HUD’s regulations.




                                              11
                         SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed

            •   Applicable laws; HUD’s regulations at 24 CFR [Code of Federal Regulations] Parts
                5, 35, 58, 84, 85, and 92; HUD’s Office of Community Planning and Development
                Notices 96-9 and 01-11; Office of Management and Budget Circulars A-87 and A-
                122; and HUD’s “Building HOME: a Program Primer.”

            •   The City’s accounting records; annual audited financial statements for 2005 and
                2006; most recent internal audit report, dated October 2004; data from HUD’s
                Integrated Disbursement Information System; Program, project, and activity files;
                computerized databases; by-laws; policies; procedures; organizational chart;
                consolidated annual plans; and consolidated annual performance and evaluation
                reports.

            •   The Center’s accounting records, annual audited financial statements for 2005 and
                2006, Program and project files; policies; and procedures.

            •   HUD’s files for the City.

We also interviewed the City’s employees, the Center’s employees, Program participants, and
HUD staff.

Finding 1

We selected all 18 projects that the City completed from January 1, 2005, through March 23,
2007. The 18 units were selected to determine whether the City effectively administered its
Program and provided assistance for eligible projects. Our sampling results determined that the
City inappropriately provided housing rehabilitation assistance to three (16.6 percent) of the 18
projects. The City provided nearly $1.4 million in Program funds for the 18 projects for an
average of $75,412 per project. The City completes approximately eight (18 projects divided by
27 months times 12 months) projects per year.

We estimated that the City will annually use at least $100,147 (8 projects times $75,412 times
16.6 percent) in Program funds for improper projects. This estimate is presented solely to
demonstrate the annual amount of Program funds that could be put to better use on eligible
projects if the City implements our recommendation. While these benefits would recur
indefinitely, we were conservative in our approach and only included the initial year in our
estimate.

Finding 2

We statistically selected 38 of the City’s activities using the U.S. Army Audit Agency’s
Statistical Sampling System software from the 85 activities completed from January 1, 2005,


                                                12
through March 23, 2007. The 38 units were selected to determine whether the City effectively
administered its Program and provided assistance for eligible activities. Our sampling criteria
used a 90 percent confidence level, 50 percent error rate, and precision of plus or minus 10
percent.

Our sampling results determined that the City inappropriately used Initiative funds for five (13.1
percent) of the 38 activities. The City provided nearly $586,000 in Initiative funds for the 85
activities from January 2005 through March 2007 for an average of $6,892 per activity. The City
completes approximately 38 (85 activities divided by 27 months times 12 months) activities per
year.

We estimated that the City will annually use at least $34,308 (38 activities times $6,892 times
13.1 percent) in Initiative funds for activities that do not qualify as income eligible. This
estimate is presented solely to demonstrate the annual amount of Initiative funds that could be
put to better use on eligible activities if the City implements our recommendation. While these
benefits would recur indefinitely, we were conservative in our approach and only included the
initial year in our estimate.

We performed our on-site audit work from February through August 2007 at the City’s office
located at 805 Central Avenue, Cincinnati, Ohio. The audit covered the period January 2005
through January 2007 and was expanded as determined necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                               13
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit objectives:

              •       Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data - Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               14
Significant Weakness

           Based on our review, we believe the following item is a significant weakness:

           •   The City lacked adequate procedures and controls to ensure compliance with
               HUD’s regulations regarding the use of Program and Initiative funds for
               eligible projects and activities (see findings 1 and 2).




                                           15
                                    APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

          Recommendation                                             Funds to be put
              number           Ineligible 1/        Unsupported 2/   to better use 3/
                 1A                 $225,085
                 1B                                     $1,106,774
                 1C                                                         $100,147
                 2A                   41,000
                 2B                                       266,382
                 2C                                                           34,308
                Totals              $266,085            $1,373,156          $134,455


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reduction in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In these instances, if the City implements our
     recommendations it will cease using Program and Initiative funds for improper projects
     and activities. Once the City successfully improves its procedures and controls, this will
     be a recurring benefit. Our estimate reflects only the initial year of this benefit.




                                               16
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         17
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




Comments 1
  and 3

Comment 4




                         18
Ref to OIG Evaluation   Auditee Comments




Comment 4




Comment 5




                         19
Ref to OIG Evaluation   Auditee Comments




                         20
Ref to OIG Evaluation   Auditee Comments




                         21
Ref to OIG Evaluation   Auditee Comments




                         22
Ref to OIG Evaluation   Auditee Comments




                         23
Ref to OIG Evaluation   Auditee Comments




Comment 6




                         24
Ref to OIG Evaluation   Auditee Comments




Comment 6




                         25
Ref to OIG Evaluation   Auditee Comments




Comment 6




                         26
Ref to OIG Evaluation   Auditee Comments




Comment 7




                         27
Ref to OIG Evaluation   Auditee Comments




Comment 7




Comment 8




                         28
Ref to OIG Evaluation   Auditee Comments




Comment 8

Comment 9




Comment 10




Comment 11




Comment 12




                         29
Ref to OIG Evaluation   Auditee Comments




Comment 12




                         30
Ref to OIG Evaluation   Auditee Comments




Comment 12




                         31
                        OIG’s Evaluation of Auditee Comments

Comment 1   HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.254(a)(2)(iii)
            allow the City to determine, with HUD approval, the 95 percent median area
            purchase price for single-family housing in the jurisdiction. However, the City
            did not request an increase to the affordability limit and used the single-family
            mortgage limits under section 203(b) of the National Housing Act.

Comment 2   The City did not provide sufficient income documentation to demonstrate that the
            household for project number 1928 was income eligible.

Comment 3   We do not have the authority to waive HUD’s regulations.

Comment 4   The City awarded Program funds for project number 1783 in December 2003.
            However, the City did not begin providing assistance to the single person
            household until September 2004. HUD’s regulations at 24 CFR [Code of Federal
            Regulations] 92.203(d)(2) state that a household’s annual income must be
            reexamined at the time of assistance if more than six months have elapsed since
            the household was qualified as income eligible. The project file contained
            earnings statements for three pay periods from July 11, through August 22, 2004.
            The earnings statements showed an average income of $1,459 every two weeks.
            The household’s annual income totaled $37,934 ($1,459 times 26). The limit for
            a low-income single person household was $36,000. Therefore, the household
            income exceeded the required income guideline by $1,934 (5.4 percent).

Comment 5   The appraisals for project numbers 1782 and 1906 state that the appraised values
            recognize the projects’ conditions after repairs. Therefore, we revised the report
            to state that the City lacked documentation for 15 of the 18 projects selected for
            review to support that it used more than $1.1 million in Program funds for
            appropriate projects. We also amended recommendation 1B to reflect this
            revision. The appraisal for project number 1775 states that the appraisal was
            made as is and did not state that the appraised value recognizes the project’s
            condition after repairs. Further, the letter from the appraiser was not on official
            letterhead and did not contain contact information for us to follow-up with the
            appraiser regarding the appraisals.

Comment 6   The City’s updated policies and procedures should improve its procedures and
            controls over its projects, if fully implemented.

Comment 7   The project file for the household, activity number 2113, a four person household,
            contained earnings statements that showed an average income of more than
            $1,944 every two weeks. Further, documentation from the County’s Department
            of Job and Family Services showed that the household received more than $170 in
            child support payments every two weeks. Therefore, the household’s annual
            income totaled $54,973. The limit for a four-person low-income household was




                                             32
              $51,700. Therefore, the household income exceeded the required income
              guideline by $3,273 (6.3 percent).

Comment 8     The City did not provide sufficient documentation to show that its inspections
              ensured that the activities met all applicable state and local housing quality
              standards and code requirements.

Comment 9     The City inappropriately cited 25 CFR [Code of Federal Regulations]
              58.35(b)(5)(c) rather than 24 CFR [Code of Federal Regulations] 58.35(b)(5) in
              its environmental review record for the Initiative. The case by case
              environmental reviews for each activity inappropriately stated that the activities
              were exempt from National Environmental Policy Act procedures rather than that
              the activities were categorically excluded from National Environmental Policy
              Act procedures. In addition, the case by case environmental reviews did not
              cover all elements contained in 24 CFR [Code of Federal Regulations] 58.6, such
              as coastal barrier requirements and runway clear zones.

Comment 10 The City provided a sufficient lead-based paint disclosure form for activity
           number 2060. Therefore, we reduced the number of activities in which the City
           could not provide a lead-based paint disclosure form to 14 activities. The sales
           contracts the City provided for six activities did not contain all four elements
           required by HUD’s regulations at 24 [Code of Federal Regulations] 35.92(a).

Comment 11 We removed from the report that the City could not provide adequate
           documentation supporting that a homebuyer for one activity was a first-time
           homebuyer. We also amended recommendation 2B to reflect this revision.

Comment 12 The City’s updated policies and procedures should improve its procedures and
           controls over its activities, if fully implemented.




                                              33
Appendix C

                                HUD’S REGULATIONS

Finding 1
HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.203(a)(2) state that a
participating jurisdiction must determine households’ annual income by examining source
documentation evidencing households’ annual income. Section 92.203(d)(1) states that a
participating jurisdiction must calculate a household’s annual income by projecting the
prevailing rate of the household’s income at the time the participating jurisdiction determines the
household to be income eligible. Annual income shall include income from all household
members. Section 92.203(d)(2) states that a participating jurisdiction must reexamine a
household’s annual income at the time Program assistance is provided if more than six months
has elapsed since the participating jurisdiction determined that the household qualified as income
eligible.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.251(a)(1) state that housing
rehabilitated with Program funds must meet all applicable local codes, rehabilitation standards,
and ordinances at the time of project completion.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.254(a)(2)(iii) state that if a
participating jurisdiction intends to use Program funds for projects, the participating jurisdiction
may use the single-family mortgage limits under Section 203(b) of the National Housing Act or
it may determine 95 percent of the median area purchase price for single-family housing in the
jurisdiction.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.254(b) state that for
rehabilitation not involving acquisition, a project qualifies as affordable housing only if the
estimated value of the property after rehabilitation does not exceed 95 percent of the median
purchase price for the area as described in 24 CFR [Code of Federal Regulations]
92.254(a)(2)(iii) and the household qualifies as a low-income household at the time Program
funds are committed to the project.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.504(a) state that a participating
jurisdiction is responsible for managing the day-to-day operations of its Program, ensuring that
Program funds are used in accordance with all Program requirements and written agreements,
and taking appropriate action when performance problems arise. The use of subrecipients or
contractors does not relieve the participating jurisdiction of this responsibility.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.508(a) state that a participating
jurisdiction must establish and maintain sufficient records to enable HUD to determine whether
the participating jurisdiction has met the requirements of 24 CFR [Code of Federal Regulations]
Part 92. The participating jurisdiction must maintain records demonstrating the following:



                                                 34
      Each household is income eligible in accordance with 24 CFR [Code of Federal
       Regulations] 92.203.
      Each project’s estimated value after rehabilitation does not exceed 95 percent of the
       median purchase price for the area in accordance with 24 CFR [Code of Federal
       Regulations] 92.254(a)(2).

Finding 2
HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.355 state that housing assisted
with Program funds is subject to 24 CFR [Code of Federal Regulations] Part 35.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 35.92(a) state that each contract to
sell target housing shall include an attachment containing the following elements: (1) a lead
warning statement, (2) a statement by the seller regarding the presence of lead-based paint and/or
lead-based paint hazards, (3) a list of any records or reports available to the seller pertaining to
lead-based paint and/or lead-based paint hazards, and (4) a statement by the purchaser affirming
receipt of lead-based paint and/or lead-based paint hazard information.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 58.35(b) state HUD has determined
that activities to assist homebuyers in the purchase of existing dwelling units or dwelling units
under construction, including closing costs and downpayment assistance, are categorically
excluded activities that would not alter any conditions that would require a review or compliance
determination regarding environmental impact. However, the recipient remains responsible for
carrying out any applicable requirements in 24 CFR [Code of Federal Regulations] 58.6.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 58.6 state that the responsible
entity remains responsible for addressing the requirements of its environmental review record
and meeting the requirements, as applicable, regardless of whether the activity is exempt or
categorically excluded.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.2 define a first-time homebuyer
as an individual and his or her spouse who have not owned a home during the three year period
prior to the purchase of a home with Initiative funds and a low-income family as a family whose
annual income does not exceed 80 percent of the median income for the area as determined by
HUD.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.251(a)(2) state that housing
acquired with Program funds must meet all applicable state and local housing quality standards
and code requirements. If there are no such housing quality standards or code requirements, the
housing must meet HUD’s housing quality standards.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.352(b)(1) state that no funds
may be committed to an activity or project before the completion of the environmental review
and related certification, except as authorized by 24 CFR [Code of Federal Regulations] Part 58.




                                                35
HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.508(a) state that a participating
jurisdiction must establish and maintain sufficient records to enable HUD to determine whether
it has met the requirements of 24 CFR [Code of Federal Regulations] Part 92. The participating
jurisdiction must maintain records demonstrating that each project meets the property standards
at 24 CFR [Code of Federal Regulations] 92.251.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.602(a)(1) state that Initiative
funds may only be used for downpayment assistance toward the purchase of single-family
housing by low-income families who are first-time homebuyers.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.612(b) state that housing
assisted with Initiative funds must meet the property standards contained in 24 CFR [Code of
Federal Regulations] 92.251.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.614(a)(2) state that the
environmental review requirements contained in 24 CFR [Code of Federal Regulations] 92.352
apply to Initiative activities.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.614(a)(4) state that the lead-
based paint prevention and abatement requirements contained in 24 CFR [Code of Federal
Regulations] 92.355 apply to Initiative activities.




                                              36
